HHS/OIG, Audit -"Review of Medicaid Drug Rebate Program State of Indiana, Indiana Family and Social Services Administration, Indianapolis, Indiana,"(A-05-03-00043)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Program State of Indiana, Indiana Family and Social Services Administration, Indianapolis,
Indiana," (A-05-03-00043)
November 24, 2003
Complete
Text of Report is available in PDF format (178 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to evaluate whether the Indiana
Family and Social Services Administration (Agency) had established adequate accountability and internal controls over
the Medicaid drug rebate program.  The Agency's controls for reporting rebate information were inadequate and allowed
inaccurate information to be submitted to the Centers for Medicare and Medicaid Services (CMS).  Additionally, the
Agency did not have controls to ensure all necessary unit and rate conversions were performed to accurately calculate
the Medicaid drug rebate accounts receivable.  We recommended that the Agency prepare and submit corrected reports
to CMS, and establish controls and implement oversight procedures for the report preparation process and to ensure all
necessary Medicaid drug rebate unit and rate conversions are performed to conform to Federal financial reporting standards.  The
Agency agreed with our findings.